September 13, 2004
Report No. 04-034


Proceeds From Terminated
Securitizations




               AUDIT REPORT
From 1991 to 1995, the RTC created a total of 72 securitizations in administering its
responsibilities for managing the liquidation of assets from failed financial institutions. These
transactions were backed by collateral consisting of residential mortgage loans, multi-family
mortgage loans, commercial mortgage loans, and other types of loan pools with characteristics
that generally conform to one of these three categories.

In general, each securitization was accomplished through the creation of a trust,3 which obtained
the collateral (loans) from one or more institutions for which the RTC had acted as receiver4 or
conservator.5 The borrowers on each of the mortgage loans serving as collateral made monthly
payments of principal and interest. The loans in each trust were pooled and stratified, and the
resulting cash flow was directed into a number of certificates.6 The certificates were sold in a
public offering managed by a lead underwriter.

A mortgage-backed securities master servicer (servicer) and a trustee were appointed for each
trust. The servicer’s primary responsibilities were to collect the payments from the individual
borrowers; track payment status; provide reports on loan payment activity to the trustee, the
investors, and the FDIC; and follow up on delinquencies. The servicer held the loan payments
until the end of each remittance period, at which time the payments were sent to the trustee for
distribution to the certificate holders.7 The trustee’s principal responsibility was to protect the
interest of the certificate holders. Each month, the trustee calculated the amount of monthly
distributions payable to certificate holders; prepared their monthly statements, summarizing the
payments received by the trust and the amounts paid to each certificate holder; and made the
respective distributions. In addition, the trustee was generally responsible for the preparation of
the trust’s income tax return and related informational tax filings. The RTC’s securitization flow
of funds is illustrated on the next page.




3
  A trust is a separate legal entity that holds property or assets of some kind for the benefit of a specific person,
group of people, or organization known as the beneficiary (beneficiaries). When a trust is established, an individual
or corporate entity is designated as a trustee to oversee or manage the assets in the trust.
4
  The RTC had been appointed as receiver to manage the liquidation of assets from failed financial institutions.
5
  The RTC had been appointed as conservator to manage the assets of troubled financial institutions. In some cases,
RTC had purchased assets of a troubled institution to provide financial assistance.
6
  Certificates are securities that are sold to investors and provide a return of principal and interest.
7
  Certificate holders are the investors in the certificates issued from the securitizations.


                                                          2
When each securitization was terminated, it retained two assets -- reserve funds and residual
certificates. To obtain a high credit rating, the RTC pledged reserve funds for each securitization
that were funded using a portion of the proceeds from the sale of loans to the trust. The purpose
of the reserve funds, up to the amount funded at the closing of each securitization, was to ensure


                                                3
timely payment of all principal and interest due to investors by reimbursing losses to the trust on
the underlying loans. At securitization termination, the amount remaining in the reserve fund
was released by the trust to the FDIC.

The residual certificates entitled the FDIC to all assets remaining in a trust after all other
certificate holders had been paid in full. At termination of each trust, the trustee sold the
remaining loans and used the proceeds to pay off the remaining certificate balances. Any
proceeds remaining after payment of termination expenses were paid to the FDIC as a final
distribution of the residual certificate. In a few cases, the provisions of the trust documents
provided for all or a portion of excess interest8 to be distributed to the residual certificate holder
on a monthly basis during the life of the trust. Accordingly, there may have been no residual
distribution at the termination of a securitization.

The FDIC’s oversight rights of a securitization were based on ownership of the pledged reserve
fund and as holder of the residual certificate. DRR implemented a quality review program for
the securitization process, using contractors with expertise in securitizations to monitor servicing
of each securitization. The quality review program included monthly reconciliations of the
trustees’ account statements on the reserves with the statements to certificate holders. The
program also included annual on-site reviews of servicing operations, including a review of
financial transactions on specific RTC securitizations.

DRR is responsible for coordinating and directing all the FDIC’s activities in conjunction with
the termination of an RTC securitization. The rules governing the termination of a securitization
transaction are contained in the Pooling and Servicing Agreement (PSA) created between the
RTC, servicer, and trustee. The PSA provides detailed guidance regarding loan servicing,
reporting requirements, maintenance and use of reserves, remittance of funds from the servicer to
the trustee, and the monthly pass-through of funds from the trustee to certificate holders.
Additional guidance is in the FDIC Securitization Termination Oversight Procedures Guide
(STOP Guide), dated June 12, 1997. The STOP Guide describes the appropriate and timely
execution of the FDIC’s contractual responsibilities under the documents governing RTC-issued
securitization transactions. In addition, a post-termination analysis for each RTC securitization
is performed by a contractor within 30 days of the termination date. The post-termination
analysis files, maintained by DRR, provide final reconciliations and verifications that all funds
from the securitization were properly reported and credited to the FDIC by third parties.

RESULTS OF AUDIT

Based on our review of post-termination analyses for four securitization transactions, we
determined that DRR had established and implemented effective procedures for ensuring that
funds from those transactions were properly reported and credited to the FDIC by third parties.
Specifically, DRR had conducted reviews of the reserves and residual distributions related to all
the RTC securitizations terminated since January 2001. The documented post-termination
analyses for the four terminated securitizations we reviewed showed that third parties properly
reported and credited to the FDIC all funds related to the securitizations.


8
    Interest received on the loans less interest paid on the certificates.


                                                                4
Securitization Post-termination Analysis

The DRR post-termination analyses we reviewed for 4 of 32 securitizations terminated since
January 2001 showed that DRR had adequate procedures for ensuring that funds from the
terminated securitization transactions were properly reported and credited to the FDIC by third
parties. Specifically, DRR’s contractor had conducted procedures to verify that reserve funds
and residual distributions were properly credited to the FDIC upon terminations of the
securitizations. Further, the post-termination analyses of the securitizations were adequately
documented and provided sufficient evidence that all issues were properly resolved.

The reserve fund releases and residual distributions from the four securitization transactions
totaled $341,578,536 and $241,120,162, respectively. We determined that the procedures
established for ensuring that funds due to the FDIC from the reserves and residual distributions
provided adequate assurance that all funds had been properly reported and credited. For
example, the procedures ensured that the calculation of the residual distributions to the FDIC
was consistent with the terms of the PSA, that the calculations were mathematically correct, and
that all funds were received by the FDIC. Procedures also verified that proceeds remaining in
reserve funds after the terminations were returned to the FDIC and that the reserve fund was
fully accounted for and cleared from the FDIC’s general ledger.

Post-termination analysis files were complete and provided adequate documentation of the work
performed. The work performed during each of the post-termination analyses was in a standard
format that included: a list of Work Products, Summary and Documentation Checklist, Sales
Due To/Due From Analysis, Residual Distribution Analysis, Reserve Fund Analysis, Final
Pricing Analysis, and Follow-up Analysis. Each of the four files provided detailed descriptions
of procedures performed; analysis summaries; and sufficient cross-indexing to schedules,
reports, and other documentation showing that funds had been properly reported and credited to
the FDIC by third parties.

To determine the accuracy of the procedures performed for the four securitized transactions, we
recalculated amounts in the Flow of Funds Schedules and other schedules, which had been
prepared by DRR’s contractor for its analysis of the reserves and the residual distributions. We
also traced selected procedures to supporting documentation, verifying that the work had been
adequately documented. Further, we traced all termination follow-up issues to additional work
performed to ensure that they had been appropriately resolved. No significant exceptions were
noted in the four files we reviewed.

Because we noted no significant exceptions during our audit work, we are making no
recommendations related to the audit objective.


CORPORATION COMMENTS AND OIG EVALUATION

A written response was not required for the report. DRR notified the OIG that it had no official
comments.




                                                5
                                                                                     APPENDIX

                       OBJECTIVE, SCOPE, AND METHODOLOGY

The objective of the audit was to determine whether funds from terminated securitization
transactions had been properly reported and credited to the FDIC by third parties. We reviewed
the DRR policies and procedures established for securitization termination oversight and related
procedures used by DRR’s contractor in performing post-termination analysis. The audit scope
included 4 of the 32 RTC securitizations terminated since January 2001. We terminated our field
work on this audit based on a review of the four securitization post-termination analysis files and
the DRR procedures established for securitization terminations. We performed our work from
June through July 2004 in accordance with generally accepted government auditing standards.
To accomplish our objectives and to gain an understanding of internal controls, we reviewed the
following DRR documents.
       •   Securitization Termination Oversight Procedures Guide, June 1997
       •   Statement of Work for Securitization Financial Services Support to
           MBS-Administration
       •   Pooling and Servicing Agreement, Securitization Series 1994-C1
       •   Pooling and Servicing Agreement, Securitization Series 1995-01
       •   Securitization Post-Termination Analysis Procedures

We interviewed key personnel in DRR’s Analysis and Evaluations Unit and contract personnel
that performed the post-termination analyses on RTC securitizations. We conducted tests of the
post-termination analysis procedures performed for the four securitizations and evaluated the
extent of procedures performed to ensure that funds from the terminated securitizations had been
properly reported and credited to the FDIC by third parties. To test the accuracy of procedures
conducted by DRR, we traced summaries of procedures to supporting documentation and
recalculated the amounts in the schedules related to the reserve fund and residual distributions.
Government Performance and Results Act, Fraud and Illegal Acts, and Compliance with
Laws and Regulations
To determine whether DRR had any performance measures that we should consider in this audit,
we reviewed the DRR 2004 Strategic Plan. We did not identify any DRR performance goals that
specifically related to our audit objective.
Our audit program included steps for providing reasonable assurance of detecting fraud or illegal
acts. Also, we gained an understanding of applicable laws and regulations by examining the
Federal Deposit Insurance Act of September 21, 1950, Pub. L. No. 797, as codified at 12 United
States Code (U.S.C.), section 1821(d), Powers and Duties of Corporation as Conservator or
Receiver; and the RTC Completion Act of December 17, 1993, Pub. L. No. 103-204, as codified
at 12 U.S.C., section 1441a.(m), Termination.
Computer-Processed Data
We determined that computer-processed data was not significant to the audit objective.




                                                6
